                        EXECUTIVE SUMMARY
This is the 31 th semiannual report issued by the Office of Inspector General
(OIG) at the Federal Labor Relations Authority (FLRA). This report, submitted
pursuant to section 5 of the Inspector General Act, summarizes the major
activities and accomplishments for the period of October 1, 2003 to March 31,
2004.

During this reporting period, the FLRA Inspector General processed nine
Hotline calls and completed two administrative investigations. Two additional
investigations are currently being performed by the FLRA Inspector General.
During this period, the FLRA Inspector General completed and issued a follow-
up analysis of the statistics related to the FY 2003 Internal Review of the FLRA
Authority Case Processing. The FLRA Inspector General completed an audit of
FLRA=s Use of Government Vehicles and an Internal Review of the FLRA=s
Occupational Safety and Health Program. The FLRA Inspector General also
conducted an Internal Review of the FLRA Office of the General Counsel
Remote Duty Stations and initiated a comprehensive audit of the FLRA=s
Security Programs. This audit will focus on cybersecurity, physical security,
personnel security and Homeland Security. The FLRA experienced one security
incident during the last 6 months which involved the theft of government
property. This incident is under investigation.

The FLRA Inspector General continues to participate in the Presidential Council
for Integrity and Efficiency/Executive Council for Integrity and Efficiency
(PCIE/ECIE). During this reporting period no new legislation or FLRA draft
policies were provided to the Inspector General for review. The FLRA Inspector
General continues to conduct management and employee consultations and
engages in continuing education.

FLRA management has not addressed any oversight activity corrective actions
during this last reporting period and has not responded to Inspector General
requests for an update on this information.
THE FEDERAL LABOR RELATIONS AUTHORITY
The FLRA is an independent agency responsible for directing the labor-
management relations for 1.9 million non-postal Federal employees world-
wide, nearly 1.1 million of whom are exclusively represented in approximately
2,200 bargaining units. The FLRA is charged by the Federal Service Labor-
Management Relations (The Statute), section 7105, with providing leadership
in establishing policies and guidance relating to Federal sector labor-
management relations, resolving disputes arising among Federal agencies and
unions representing Federal employees, and ensuring compliance with the
Statute.

The FLRA represents the Federal government=s consolidated approach to
labor-management relations. It is Athree components in one,@ fulfilling legal
statutory responsibilities through its three primary operational components B
the Authority, the Office of General Counsel and the Federal Service Impasses
Panel. The FLRA has 7 regional offices and two satellite offices. The FLRA
also provides full staff support to two other organizations B the Foreign
Service Impasses Disputes Panel and the Foreign Service Labor Relations
Board.

The Authority is a quasi-judicial body with three full-time Members who are
appointed for 5-year terms by the President, with the advice and consent of
the Senate. One member is appointed by the President to serve as Chairman
of the Authority and as Chief Executive and Administrative Officer of the
FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases
concerning the negotiability of collective bargaining agreement proposals,
unfair labor practice (ULP) allegations, representation petitions, and
exceptions to grievance arbitration awards. In addition, consistent with its
statutory responsibility to provide leadership in establishing policies and
guidance to participants in the Federal labor-management relations program,
and as part of the Collaboration and Alternative Dispute Resolution (CADRE)
Program described below, the Authority assists Federal agencies and unions
in understanding their rights and responsibilities under the Statute and
resolving their disputes through interest-based problem-solving rather than
adjudication.

In addition to the three Member Offices, the Authority component of the FLRA
also houses the Office of Administrative Law Judges, the Collaboration and
Alternative Dispute Resolution Office, the Office of the Solicitor, the Office of
the Executive Director, and the Office of the Inspector General.




                                         2
Office of the Administrative Law Judges: The FLRA=s Administrative Law
Judges (ALJs) are appointed by the Authority to hear and prepare
recommended decisions in cases involving alleged ULPs. In addition, ALJs
issue decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. The decisions of the
ALJs may be affirmed, modified, or reversed, in whole or in part, by the
Authority. If no exceptions are filed to an ALJ=s decisions, the decision is
adopted by the Authority and becomes final and binding on the parties. The
ALJs also issue subpoenas as requested by the parties. While performing
their duties, the ALJs engage in settlement efforts throughout all stages of the
process and conduct pre-hearing conferences in all ULP cases.

Office of Policy, Project & Performance Management: The Office of Policy,
Project & Performance Management is responsible for agency-wide strategic
policy and planning, including the role of chief human capital officer. The
office also provides oversight with respect to FLRA performance management
initiatives. The office drafts, reviews, and approves all agency-wide
instructions and policies; oversees the Chairman=s and the Administration=s
initiatives; and develops agency-wide initiatives, which upon the Chairman=s
final approval are implemented through the Office of the Executive Director.
The office also houses the agency=s congressional affairs function and serves
as the Chairman=s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Collaboration and Alternative Dispute Resolution (CADR) Office: The
CADR Office is responsible for coordinating, supporting, and expanding the
unified CADR Program. This program involves a variety of collaboration and
alternative dispute resolution techniques at all steps of the process, from
investigation and prosecution to the adjudication of cases and resolution of
bargaining impasses. The CADR Program also provides facilitation and
training programs to assist labor and management in developing constructive
approaches to conducting their relationship.

Office of the Solicitor: The Office of the Solicitor represents the Authority in
court proceedings before all United States Courts, including the U.S.
Supreme Court, U.S. Courts of Appeals, and Federal District Courts. The
office serves as the agency=s in-house counsel, providing legal advice to all
FLRA components. The Solicitor is also the Designated Agency Ethics
Officers under the Ethics in Government Act of 1978, as amended.

Office of the Executive Director: The Office of the Executive Director
provides operational support to all components of the FLRA, including budget
and finance, human resources, procurement, administrative services, and
information resources management and is responsible for developing and
implementing agency-wide initiatives, such as strategic planning.


                                        3
Office of the Inspector General: The Office of the Inspector General is
responsible for directing and carrying out audits and investigations related to
the FLRA Programs and operations. In addition, the office recommends
policies that promote economic, efficient, and effective agency programs that
prevent fraud, waste and abuse. The office is responsible for keeping the
Chair and the Congress fully informed of problems and deficiencies, as well
as the necessity for corrective action. The Office of the Inspector General is
mandated by Public Law 100-504 and the Inspector General Act Amendments
of 1988.




                                        4
The Office of the General Counsel: The Office of the General Counsel
(OGC) is the independent investigative and prosecutorial component of the
FLRA. The OGC investigates all ULP charges filed by labor or management
and prosecutes all ULP complaints before the Authority. The General
Counsel, who is appointed by the President with the advice and consent of
the Senate for a 5-year term, manages all OGC employees who comprise over
50 percent of the FLRA=s staff. Most of the OGC=s staff serve in the FLRA=s
seven regional offices located in Atlanta, Boston, Chicago, Dallas, Denver,
San Francisco, and Washington, DC. The Office of the General Counsel also
operates 2 satellite offices, located at Brea, California and Cleveland Ohio.
The regional and satellite offices investigate and settle or prosecute ULP
claims, actively encouraging the use of collaboration and alternative dispute
resolution at every step, to ensure compliance with all ULP orders issued by
the Authority. The regional offices also receive and process representation
petitions, and provide facilitation, intervention, training, and education
services to the parties. The General Counsel reviews all appeals of a Regional
Director=s decision not to issue a ULP complaint and establishes policies and
procedures for processing ULP charges.

The Federal Service Impasses Panel: The Federal Service Impasses Panel
(FSIP or the Panel) is composed of seven part-time Members who are
appointed by the President to serve for a 5-year term. One Member is
appointed by the President to serve as the Panel Chair. The Panel resolves
bargaining impasses between Federal agencies and unions representing
Federal employees arising from negotiations over conditions of employment
under the Statute and the Federal Employees Flexible and Compressed Work
Schedules Act. If bargaining between the parties, followed by mediation
assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the
impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor
Relations Board (the Board) was created by the Foreign Service Act of 1980 to
administer the labor-management relations program for Foreign Service
employees in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture and Commerce. The
Board is composed of three Members, including the Chairman of the
Authority who appoints the other two Members, who serve on a part-time
basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the
Authority staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service
Act of 1980. The Disputes Panel is composed of five part-time Members who

                                       5
are appointed by the Chairman of the Foreign Service Labor Relations Board
(the FLRA Chair). The Disputes Panel resolves bargaining impasses between
Federal agencies and Foreign Service personnel in the U.S. Information
Agency, the Agency for International Development, and the Departments of
State, Agriculture, and Commerce, over conditions of employment under the
Foreign Service Act of 1980. The FSIP staff supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains
regional offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco,
and Washington, D.C. The FLRA has 215 full-time equivalents (FTE=s).


FLRA MISSION STATEMENT
The Federal Labor Relations Authority exercises leadership under the Federal
Service Labor-Management Relations Statute to promote stable, constructive
labor relations that contribute to a more effective Government.

The Federal Labor Relations Authority fulfills its mission by:

!     Enforcing and clarifying the law through sound, timely decisions and
      policies;
!     Using fast, simple processes to conduct its business;
!     Providing high quality training and education programs, and furnishing
      effective intervention services; and
!     Administering its resources to ensure that services are responsive to
      the unique needs of its customers.

In order to accomplish this mission, the FLRA has established the following
      four goals:

1.    Provide high quality services that timely resolve disputes in the Federal
      labor-management relations community.

2.    Use and promote alternative methods of resolving and avoiding
      disputes and provide services to enhance labor-management
      relationships.

3.    Develop, manage and utilize the FLRA=s internal systems and processes
      to meet program needs.

4.    Develop, manage and utilize the FLRA=s human resources to meet
      program needs.

OFFICE OF INSPECTOR GENERAL


                                        6
The FLRA's Office of Inspector General was established pursuant to Public
Law 100-504, the Inspector General Act Amendments of 1988, which
amended Pub. L. 95-452, and the Inspector General Act of 1978. The
Inspector General reports directly to the FLRA Chairman. As set forth in the
authorizing legislation, the FLRA Inspector General:

!     Conducts and supervises internal reviews, audits and evaluations of
      the programs and operations of the FLRA;
!     Provides leadership and coordination, and recommends actions to
      management, which: (1) promote economy, efficiency, and effectiveness
      in agency programs and operations; and (2) prevent and detect fraud,
      waste, abuse, and mismanagement of government resources; and

!     Keeps the Chairman, FLRA management, and the Congress fully
      informed regarding problems and deficiencies, as well as the necessity
      for the progress of corrective action.

The Inspector General=s Office is currently staffed with one full time Inspector
General and one full time Management Assistant (upward mobility position).
When required, the FLRA Inspector General uses contractor auditors to assist
in performing audits. Legal advice is provided to the Inspector General on an
as needed basis by the FLRA=s Office of the Solicitor. The Office of the
Inspector General had been allocated funding totaling $161,0 00.00 for FY
2004. Information concerning the FY 2004 FLRA allocation was not available
at the time this report was created. The FLRA Inspector General submitted a
request for an increase in operational funding in the FLRA Office of Inspector
General FY 2005 budget submission. The lack of staff and increased
oversight activities required by law (annual security and financial statement
audits) provide the basis for this request.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA
leadership, along with an independent and objective assessment of the
organization=s efficiency and effectiveness. This is accomplished through
proactive evaluations of FLRA operational processes. The Inspector General
provides necessary oversight and serves as a catalyst for improving and
maximizing the efficiency and integrity of FLRA programs and operations.
The goal of the Inspector General's work is to maximize the effectiveness of
FLRA programs by evaluating performance and identifying ways to make
these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and
mismanagement of the FLRA=s resources and operations which could
adversely impact the organization=s integrity and ability to perform its mission
in a timely, customer responsive manner.


                                        7
The primary objectives of the Office of Inspector General are as follows:

!     To evaluate the efficiency and effectiveness of FLRA program and
      resource management and identify best practices, as well as causative
      factors, impeding the accomplishment of the FLRA mission.




                                        8
!     To assist the Chairman and FLRA management in carrying out their
      responsibilities by providing them with objectives and timely
      information on the conduct of FLRA operations, together with the
      Inspector General=s independent analysis, conclusions, and
      recommendations.

!     To use evaluations, internal reviews, and more traditional assessment
      tools of audits, inspections, and investigations, to maximize oversight
      and strengthen system and process controls.

!     To support the Administration and Congress in maximizing
      Government integrity and efficiency and minimizing the occurrence of
      fraud, waste, abuse, and mismanagement.

                AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the following audit was performed by the FLRA
Office of the Inspector General in compliance with Government auditing
standards:

Audit of FLRA=s Security Programs
     Open

With the assistance of a contractor, the FLRA Inspector General began a
comprehensive audit of FLRA=s Security Programs. This includes
cybersecurity, personnel security, physical security and homeland security.
The cybersecurity aspect will include penetration testing as well as the extent
of the Agency=s compliance with the Federal Information Security Act of FY
2000 and E-Government standards. The basis of this audit is to ensure that
the FLRA=s Security Program creates a secure environment for its employees,
has appropriately implemented personnel security which is understood and
adhered to by management and employees, is in compliance with Federal
homeland security and that its information security progress is focused on
Federal security information requirements.

Internal Review of FLRA=s Occupational Safety and Health Programs
      Closed

During this reporting period, the FLRA Inspector General conducted an
evaluation of the FLRA=s Occupational Safety and Health Programs. The
evaluation revealed that the FLRA has interagency agreements with the
Department of Health and Human Services for health services and the
Employee Assistance Program and with the Department of Defense for the
Computer Electronic Accommodation Program. However, management has
not provided sufficient training for its employees and has not taken advantage
of all of the things available through these interagency agreement. Also, there

                                        9
were no records available showing annual workplace analysis or
safety/security inspections. The FLRA did issue an Emergency Evacuation
Plan after the September 11, 2002 disaster but it does not contain specific
information on where to go should a terrorist attack take place. The FLRA
has also not appropriately implemented the Drug Free Federal Workplace Act.

This evaluation revealed that the FLRA=s primary health problem of employees
was carpel tunnel which may have been the result of old furniture which was
not made for healthy computer typing. The FLRA Headquarters purchased
new furniture for its employees at the end of September, 2004. Other
vulnerabilities surfaced included air quality and work environment stress.
Most FLRA employees have had satisfactory health care from the Health
Services and good experiences with the Employee Assistance Program. The
major safety vulnerability primarily pertains to the FLRA Headquarters which
did not undergo annual workplace analysis or safety inspections in its former
location.

Internal Review of FLRA’s Use of Government Vehicles
Closed

This internal review revealed that although travel is an essential requirement
for the FLRA Office of the General Counsel attorneys and labor management
specialists who are investigation agents, the FLRA does not have any written
policy or guidance for the use of Government vehicles. Those Regional Offices
which have government vehicles pay for it through their allocations. When
correlated with case workload, the actual use of Government vehicles by the
employees of those offices which have the vehicles was not significant.
Although having Government vehicles provides a convenience for employees
and supports case processing timeliness, its use and cost effectiveness has
diminished over the last few years. The use of rental vehicles and other
modes of public transportation is definitely a viable alternative for the three
Regional Offices which still maintain Government vehicles.

Evaluation of FLRA=s Authority 2003 Case Processing Statistics

                                                                                  O
                                                                                  p
                                                                                  e
                                                                                  n


Authority Case Processing statistic created by the FLRA Inspector General to
assess the Authority=s Case Processing during the FY 2003 Internal Review of
Authority Case Processing were provided to the Inspector General mid
February 2004. An analysis of these statistics indicated that an improvement
had been made in the timeliness of Authority case processing. The analysis

                                       10
also indicated that several Abest practices@ existed in the Authority case
processing including Asame day@ case processing by an Office Manager as
well as a Member in conducting their case processing responsibilities. While
an improvement has occurred, there are still recommendations stated in the
Internal Review of Authority Case Processing in FY 2003 that have not been
addressed which would improve case processing even more.




                                      11
Internal Review of Office of the General Counsel=s Remote
      Closed
Duty Stations

This internal review revealed that FLRA Office of the General Counsel=s
                                                                 Remote Duty
Stations have been in existence since the Agency was created in l978 and
                                                                 have been
Eliminated over the years for various reasons. The two that are still in
                                                                 existence are
located in Brea, California and Cleveland Ohio and work for the Regional
                                                                 Directors of
the San Francisco and Chicago Regional Offices, respectively. This review
                                                                 revealed t
that all previous FLRA General Counsels planned or the elimination of these
                                                                 remote
duty locations but when it should be done was always, and currently is an
                                                                 issue. The
current two duty stations are staffed with tenured, experienced employees
                                                                 who handle
a significant amount of cases in their locations, and, thus, are considered a
                                                                 needed
asset by their Regional Directors. The costs of maintaining these two sites is
                                                                 much less
than the cost of moving the 4 employees to their Regional Offices (assuming
                                                                 they
would go). Such a move would also increase the travel budget of both
                                                                 Regional
Offices. Because the FLRA has no policy regarding full time working at home,
                                                                 and
management does not have the alternative of directing employees to work at
                                                                 home,
this is not a current viable option.

Other Activities

During this reporting period, significant additions were made to the FLRA
                                                  Inspector
General website including executive summaries of oversight activities
                                                  conducted during
the last year, and an update on Inspector General policy.

Security Issues

During this reporting period, the FLRA had one security incident. On March
                                                              17, 2003,

                                       12
the Atlanta Regional Office was broken into and several government lab tops ,
                                                              roller
overnight Laptop storage cases and power cords were stolen. In addition to
                                                              the stolen
items, some property was also damaged. The Atlanta Region Federal
                                                              Protective
Service, Police Department and Colomade Properties and FLRA Security
                                                              Officer were
contacted and investigations were appropriately conducted.

Oversight Corrective Actions

During this reporting period, the Office of General Counsel addressed
                                                               corrective
actions. The Authority has not addressed open corrective actions during the
                                                               last 12
months.

Debt Collection

The FLRA did not obtain any debt collections during this reporting period.




                                       13
Review of Legislation/Policy

Continuing Education

During this reporting period, the FLRA Inspector General attended:

The Internal Auditors Audit Conference
PCIE/ECIE Inspector General Conference

Presidential Council of Integrity and Efficiency/Executive Council of
                                                           Integrity
and Efficiency (PCIE/ECIE)

  The FLRA Inspector General continues to participate in the Executive
                                                   Council of
Integrity and Efficiency and PCIE/ECIE activities.

Investigation Activity

During this reporting period, the FLRA Inspector General received four
                                                               complaints
which required preliminary investigations. Two of these required full
                                                               administrative
investigations. Two investigation have been completed, one is in progress and
                                                               one is on
hold.

 2004-I-01               FLRA Denver Regional          10/16/03      Closed. Contacted




                         Received threatening letter
                         From former federal




                         Who has filed a ULP.

                                       14
2004-I-02   Federal worker alleges       11/20/03   Closed. Discussed
            Improper investigation of               Findings and
            ULPs by the FLRA San                    Recommendations
            Francisco Regional Office.              With General




2004-I-03   Federal employee alleges    2/20/04     Open
            Inappropriate behavior of
            FLRA investigator.
2004-I-04   FLRA employee alleges       3/25/04     Open
            Improper activities, abused
            Management authority



            Malfeasant management.




                          15
Hotline Calls

During this reporting period, the FLRA Inspector General processed eight
                                                              Hotline Calls,


   2004-H-02             Former FAA employee         10/9/03       Referred to
                         alleges improper actions by               Department of
                         the union representative                  Transportation
                         which have affected 40                    Inspector General
                         employees negatively.
                         ULP and Appeal negated
                         because of time element.
   2004-H-03             Postal service employee     10/14/03      Closed: Referred to
                         alleges mishandling of                    US Postal Service
                         paperwork by postal                       Inspector General
                         service and Department of
                         Labor (NF)
   2004-H-06             Private sector employee     11/17/03      Closed, no file.
                         (non-union) alleges                       Referred to
                         mistreatment by                           Department of
                         management.                               Labor Inspector
                                                                   General
   2004-H-07             Dept. of Justice U.S.       1/12/04       Referred to EEO
                         probation former employee
                         alleges termination because
                         of age and salary.
   2004-H-08             Former Department of        1/15/04       Referred to Special
                         State Employee alleges                    Counsel.
                         whistleblower activities by
                         e-mails to FLRA
                         Presidential appointees.
   2004-H-09             U.S. Probation Department 1/21/04         Referred to EEO;
                         non-union employee                        Closed no file
                         alleges termination because
                         of age and high salary




                                       16
    2004-H-10             Lady friend of Florida          2/19/04   Referred to Atlanta
                          Dept. of Veterans Affairs                 Regional Office
                          employee requested                        and/or FLRA
                          information on Federal                    website for
                          employee compliant                        information
                          options regarding illegal
                          management and labor
                          actions.


               SPECIFIC REPORTING REQUIREMENTS OF
         THE INSPECTOR GENERAL ACT OF 1978, AS AMENDED

The following provides the report page references containing the Inspector
                                                           General
responses, if any, to specific reporting requirements set forth in certain
                                                           sections of the
Inspector General Act of 1978, as amended.

Section 4(a)(2) Review of legislation and regulations.
                                                                    Page     10

Section 5(a)(1) Significant problems, abuses, and deficiencies.
                                                                    None

Section 5(a)(2) Recommendations with respect to significant
                                                                           No
                                                                    ne
problems, abuses, or deficiencies.

Section 5(a)(3) Prior significant recommendations on which
                                                                           No
                                                                    ne
corrective action has not been completed.

Section 5(a)(4) Matters referred to prosecutorial authorities.
                                                                    None

Section 5(a)(5)    Summary of instances where information was refused.
                                                                   No
                                                             ne

Section 5(a)(6) List of audit/internal review activity.             Page 7


                                        17
Section 5(a)(7) Summary of significant reports.                             None

Section 5(a)(8) Statistical table of reports with questioned costs.
                                                                                   No
                                                                            ne

Section 5(a)(9) Statistical table of reports with recommendations
                                                                                   No
                                                                            ne
                  that funds be put to better use.

Section 5(a)(10) Summary of previous audit reports without
                                                                                   No
                                                                            ne
                      management decisions.

Section    5(a)(11)     Significant   management      decision    revised     during
                                                                            None
                      this period.

Section   5(a)(12)     Significant    management     decision    with   which the
                                                                          None
                      Inspector General disagrees.




                                          18
 TABLE I: INSPECTOR GENERAL AUDIT REPORTS WITH
                QUESTIONED COSTS

INSPECTOR GENERAL            NUMBER         DOLLAR VALUE
   REPORTS WITH                OF
 QUESTIONED COSTS            REPORTS   Questioned   Unsupported
                                         Costs         Costs

 A. For which no
      management
    decision has been
    made by the
    commencement of
    the reporting
    period.

 B. Which were issued
    during the
    reporting period.

 C. For which
    management
    decision was made
    during the
    reporting period.

      (i)Dollar value of
      disallowed costs.

       (ii)Dollar value of
      costs not
      disallowed.

 D. For which
    management
    decision has been
    made by the end of
    the reporting
    period.

                                19
TABLE II: INSPECTOR GENERAL AUDIT REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

   INSPECTOR GENERAL REPORTS    NUMBER    DOLLAR VALUE
   WITH RECOMMENDATIONS THAT      OF
   FUNDS BE PUT TO BETTER USE   REPORTS



                          20
A.    For which no management decision         0       0
has been made by the commencement of
the reporting period.

B.    Which were issued during the         0           0
reporting period.

C.   For which a management decision       0           0
was made during the reporting period.

    (i) dollar value of recommendations    0           0
           that were agreed to by
management.
                                           0           0
    (ii) dollar value of recommendations
           that were not agreed to by
management.                                2       $31,000.00

D.    For which no management decision
was made by the end of the reporting
period.




                                     21
22
                       FLRA INSPECTOR GENERAL
                      Oversight Activities Summary
                  September 30, 2003 – March 31, 2004

Subject                                                         Status

Internal Review of FLRA=s Use of Government Vehicles
                                                                     Complet
                                                                ed

Statistical Follow-up of Authority Case Processing
                                                                     Complet
                                                                ed

Internal Review of FLRA=s Compliance with Occupational
                                                                     Complet
                                                                ed
Safety & Health Programs

Internal    Review     of     FLRA     Office        of   General   Counsel’s
                                                                 Completed
Remote Duty Stations

Audit of FLRA’s Security Programs                                        Open




                                       23
Internal Review of Authority   04/03/03   1.   FLRA Authority Members/Chief Counsels should develop
Case Processing                                standard policy and timeliness for case processing,
                                               including the average length of time the case should be at
                                               various stages of its process.

                                          2.   The FLRA Chief Counsels need to work with the Director,
                                               Case Control Office to expand the current system and
                                               establish a complete and interactive automated Case
                                               Tracking System

                                          3.   FLRA Authority Members should standardize their case
                                               processes, internal goals, internal controls and performance
                                               standards for all of their employees.

                                          4.   FLRA Authority Members should create a standard case
                                               processing policy (or manual) to ensure that current and
                                               new employees perform their duties appropriately.

                                          5.   The Screening Committee should be required to provide
                                               more merit review and legal issue information on the cases
                                               they review.

                                          6.   Authority cases should be reviewed thoroughly by each
                                               Chief Counsel.

                                          7.   Input from the Members at the time of case assignment and
                                               more interaction among the Members and their senior staff
                                               would eliminate repetition.

                                          8.   The Authority should consolidate the issuance of the Issue
                                               Memorandum and Decision Memorandum for non-complex
                                               cases and implement a Member/Chief Counsel Meeting.

                                          9.   The Director, Case Control Office, Members’ Senior Chief
                                               Counsels should once again with the Chief Information
                                               Officer and Director, Information Resources Management
                                               to improve the current Case Tracking System to support
                                               Authority Member Offices case tracking process.

                                          10. Add an additional FTE to the Collaborative Alternative
                                              Dispute Resolution Office to enable the Authority process
                                              of resolution to expand.




                                               24
                                      11. The Authority should plan a training conference for Federal
                                          agency and union employees in 2004 pertaining to labor
                                          management and case filing/adjudication and resolution
                                          processes
                                      12. The Authority should issue a letter to Federal Labor
                                          Management representatives and Federal Union
                                          representatives addressing the need for procedural
                                          compliance of case appeals.

Follow-up Internal Review of   8/03   1.   Human Resources Division should prepare a work plan
FLRA’s Human Capital                       specifically related to the FY 2000 Findings and
                                           Recommendations.
                                      2.   Establish an integrated senior leadership/management team
                                           to address human capital issues and provide justified
                                           recommendations to the Chairman.
                                      3.   Reinstate monthly management meeting during which
                                           current management issues are discussed and each manager
                                           is required to brief all managers on major activities.
                                      4.   FLRA components should be briefed on behavior and
                                           communication interactions and engage in personality
                                           testing. (Myers Briggs Type Indicator and/or Strong
                                           Interest Inventory) This could be done in-house or at an
                                           offsite meeting.
                                      5.   The agency needs to compile more human capital statistics
                                           to make proper human capital decisions. The following
                                           data should be considered to be collected by HRD:
                                           workforce data, skills inventory, dates and dispersal of
                                           performance appraisals, yearly vacancies and time period
                                           required to fill them, yearly data on number and costs of
                                           bonuses, awards and other incentives, yearly statistics on
                                           grievances, EEO complaints and findings, yearly costs and
                                           percentage of budget on recruitment, total human capital
                                           costs in dollars, costs of promotions and within grade
                                           increases, and amount per employee spent for training and
                                           its percentage of the operating budget.
                                      6.   Update the FLRA Strategic Plan and have management
                                           revise component action plans and employee work and
                                           performance plans with a focus on agency-wide results.
                                      7.   The Chairman, FLRA should appoint a Human Capital
                                           Officer and/or a Senior Management Committee who
                                           should address Agency-wide human capital issues and
                                           work with the Director, HRD to ensure agency-wide
                                           compliance with the President’s Management Agenda’s
                                           human capital standards.
                                      8.   FLRA HRD should perform an Agency-wide employee
                                           skills inventory which would provide a baseline for skill
                                           needs, employee training and future hiring.
                                      9.   All FLRA supervisors should be required to provide
                                           employees with work plans and individual development
                                           plans.




                                      1.   Add contemporary safety, health, and security information


                                            25
Internal Review of FLRA’            including the Emergency Plan and a current list of FLRA
Occupational Safety & Health        policy to the website as well as the Orientation Package
                                    given to new employees.
                               2.   Increase Agency-wide training for FLRA safety and health
                                    programs. Ensure that all supervisors are knowledgeable of
                                    OSHA requirements and provide contemporary information
                                    to their staffs. Include volunteer training for CPR and
                                    increase safety evacuation information to include maps of
                                    areas, where to go to ensure employee safety.
                               3.   The FLRA, HRD should ensure that all OSHA statistics and
                                    records be maintained so that the FLRA is in compliance
                                    with the OSHA requirements.
                               4.   FLRA should expand its definition of sensitive positions to,
                                    at least, include Security Officers, Computer Information
                                    Office and both senior and line managers and comply with
                                    it’s Drug Free Workplace Plan by randomly testing at least
                                    one person per year.
                               5.   The FLRA Executive Director and Director, Administrative
                                    Service Division should review the Interagency Agreements
                                    with the Department of Health and Human Services and
                                    ensure that all stated provisions are current and addressed.
                               6.   The FLRA Safety Program Manager should ensure that all
                                    FLRA sub components maintain standardized sufficient and
                                    accessible safety/protective equipment.
                               7.   FLRA management should prioritize the development of an
                                    FLRA Continuity of Operations (Contingency) Plan.
                               8.   Annual FLRA facility (Headquarters and Regional Offices)
                                    safety checks should be performed by building security
                                    officer      of     FLRA       security      officer,   and
                                    maintained/documented and followed up by ASD’s Security
                                    Officer.




                                     26
                        FLRA INSPECTOR GENERAL
                      CORRECTIVE ACTION SUMMARY
                    September 30, 2003 – March 31, 2004


  New Corrective Actions                     17

  Open Corrective Actions Carried Over 66

  Total Actions Closed This Period           1

  Total to be Carried Over                   83

  Significant Recommendations

According to Section 5(a)3 of the Inspector General Act, the Inspector General
                                          is
required to follow up and report on the implementation status of all open
significant recommendations" from prior Semi annual reports. The Inspector
General has defined recommendations" as those that pertain to deficiencies
                                          that
could result in FLRA failure to accomplish mission functions or could result
                                          in
additional costs or lost funds exceeding $5,000. The following findings and
recommendations are related to the audits and reviews completed during the
                                          six
month period from September 30, 2003- March 31, 2004.

Corrective actions from previous oversight activities have either not been
addressed or completed.

The following corrective actions from previous oversight activities were
implemented during the past six months.




                                        27
2004-I-1

Office of the General Counsel   1. Assurance that appropriated documentation     Closed
                                Is maintained in case files prior to making      March 24,
                                               2004
                                And issuing case decisions


                                2. Use of certified mail to issue case    Not considered
                                Decisions to parties                      cost by OGC
                                               even
                                                                          though used by
                                                                          Authority CCO,
                                                                          FSIP, ALJs, IG
                                                                          to notify
                                                                          complainant of
                                                                          final decision.

                                3. Charging party telephone requests/approval   Closed
                                of affidavits, withdrawals , etc should be        March
                                                       24,2004
                                documented and signed by charging party.




Glossary

Final Action

Completion by management of either all actions necessary to implement
                                     report
recommendations or a management decision that determines no action is
                                     necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be
                                      obtained by
implementing report recommendations relating to more efficiency and
                                      effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report
                                      recommendations
That may include actions concluded to be necessary or a determination that
                                      no action
is necessary.


                                               28
Management Letter

This document brings to the attention of management any of a broad range of
                                        issues
and subjects which should be addressed by management, but do not require
                                        formal
audit or investigation. Management letters are generally unplanned and are
                                        issued to
report on situations found in conjunction with an on-going or completed
                                        audit or
investigation. These letters may also be used to expand on previously issued
                                        audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the
                                        following:
Unsupported costs, which involve inadequate documentation;
Disallowed costs, which involve an alleged violation concurred with by
Managements Decision of a law, regulation, grant, contract, or another
                                        agreement; or
Unnecessary or unreasonable costs which involve unnecessary or wasteful
spending.




                                      29
